U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gas Pipe, Inc. et al. v. United States of America
S.Ct. No. 21-183
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 5,
2021, and placed on the docket on August 9, 2021. The government’s response is due on
September 8, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0183
GAS PIPE, INC., ET AL.
USA

JOHN D. CLINE
LAW OFFICE OF JOHN D. CLINE
50 CALIFORNIA STREET
STE. 1500
SAN FRANCISCO, CA 94111
415-662-2260
CLINE@JOHNDCLINELAW.COM
JEFFREY L. FISHER
O'MELVENY & MYERS LLP
2765 SAND HILL ROAD
MENLO PARK, CA 94025
650-473-2633
JLFISHER@OMM.COM
ANTON METLITSKY
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10030
212-326-2000
AMETLITSKY@MM.COM
JASON ZARROW
O'MELVENY & MYERS LLP
400 S. HOPE STREET
LOS ANGELES, CA 90071
213-430-8367

